1/22/2021

Credit Cards - AAdvantage Signature Terms

(https://www.popular.vi/)

AAdvantage® VISA Signature Plus - Terms and Conditions

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

APR for Balance Transfers

1.99% introductory APR for the rst 6 months.
After that, your APR will be from 13.24% up to 26.24%, based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.1
0.00% introductory APR and 0 payments from the transfer date for 12 months
and $0 balance transfer fee. Applies to transfers made within the rst 90 days
from account opening.
After that, your APR will be from 13.24% up to 26.24%, based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.1

APR for Cash Advances

24.24% to 28.24% when you open your account, based on your
creditworthiness.
This APR will vary with the market based on the Prime Rate.1

https://www.popular.vi/cards/credit-cards/aadvantage-visa-signature/terms/

1/6

1/22/2021

Credit Cards - AAdvantage Signature Terms

Interest Rates and Interest Charges
Paying Interest

For Credit Card Tips from
the Consumer Financial
Protection Bureau

Your due date is at least 25 days after the close of each billing cycle. You will not
be charged interest from the time you purchased goods or services, if you pay
your full account balance by the Payment Due Date. In the event you don't pay
the full account balance, while in the Grace Period, you will not pay interest on
the amount paid for that cycle. On subsequent cycles you will not have a Grace
Period until you pay your full account balance on time for two cycles in a row.
Amounts related to certain o ers will not be taken into consideration in
determining the Grace Period. Please refer to the o er terms and conditions.
The No Grace Period Transactions begin to accrue interest on the date they are
posted and remain subject to Interest Charges until paid in full.
To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau.
(https://www.consumer nance.gov/learnmore)

Fees
Annual Fee

Transactional Fees
• Cash Advances and
Convenience Checks
• Balance Transfers

$50 Annual Fee

2% de la cantidad de cada transacción (mínimo $2; máximo $10)
2% de la cantidad de cada transferencia (mínimo $2; máximo $10)
None

• Foreign Transaction

https://www.popular.vi/cards/credit-cards/aadvantage-visa-signature/terms/

2/6

1/22/2021

Credit Cards - AAdvantage Signature Terms

Fees
Penalty Fees
• Returned Payment
• Late Payment

Up to $10
Up to $38

How we will calculate your balance: We use a method called "average daily balance" (including new transactions).
Loss of introductory APR:We may end your introductory APRs and apply the corresponding APRs if you close your
account or if you miss a payment.
Billing Rights: Information on your right to dispute transactions and how to exercise this right is provided in your
Credit card Agreement.

I con rm I have reviewed the credit card Price and Terms and agree to submit my application.
I authorize Popular to obtain my credit report, as speci ed here (/credit-report).
I con rm I have reviewed Popular’s Privacy Policy, as speci ed here (/privacy).
I agree with the website’s Terms of Use, as speci ed here (/terms).
I agree with the Electronic Banking Services Agreement, as speci ed here
(https://documents.popular.com/terms/mibanco/terms-conditions-en).


Agree

Continue

https://www.popular.vi/cards/credit-cards/aadvantage-visa-signature/terms/

3/6

1/22/2021

Credit Cards - AAdvantage Signature Terms

The information on card costs described is correct as of December 31, 2020.
This information may have varied after this date. To verify what may have changed in this information call (787) 7580505 or toll free 1-800-981-9505 or write to the following address:
Popular de Puerto Rico
Card Products Division (643)
PO BOX 363228, San Juan, Puerto Rico 00936-3228
IMPORTANT NOTICE USA PATRIOT ACT
Section 326 of the USA PATRIOT Act was e ective on April 17, 2015. This law requires nancial institutions to obtain,
verify, and record the information that identi es persons opening accounts. The USA government created this law as a
measure to ght terrorism and money laundering.
When you open an account:
We will ask your name, home or street address, date of birth, social security number, and any other information
deemed necessary to allow us to positively identify you.
We will ask to see your valid driver's license or other valid identi cation with photo issued by the government.
Thanks for allowing us to serve you. Con dentiality of the information gathered by Popular, Inc. will be maintained as
required under the Privacy Act.
1

For each billing period, the Interest Charge and APR will be determined by adding the Prime Rate, as published by
the Wall Street Journal, to a margin. The variable rates illustrated are based on a Prime Rate of 3.25% in e ect March
16, 2020.

Back to top

(https://www.facebook.com/PopularVI)

https://www.popular.vi/cards/credit-cards/aadvantage-visa-signature/terms/

4/6

1/22/2021

Credit Cards - AAdvantage Signature Terms

Contact us (contact-us/)
Español (https://www.popular.vi/es/tarjetas-credito/aadvantage-visa-signature/terminos/)

Online Security (https://www.popular.com/en/security/)
FDIC Insurance Notice (fdic/)
Privacy Policy (https://www.popular.com/en/privacy/)
Terms and Conditions of Use (terms/)
Diversity and Inclusion Policy (https://www.popular.com/en/diversity-policy/)
Accessibility (accessibility/)
Weblinking Practices (weblinking-practices/)
ZAPortal for Employees (https://zap.popularinc.com)
ZAPortal Popular Retirees (https://zap.popularinc.com/zaplogon/rsa_step1.jsp)
Find a Branch or ATM (https://locator.popular.com/?lang=en&region=vi)

Bank Routing Number
021502011

TeleBanco Popular®
1.888.724.3659

Hearing impaired (TDD)
1.800.981.9666
https://www.popular.vi/cards/credit-cards/aadvantage-visa-signature/terms/

5/6

1/22/2021

Credit Cards - AAdvantage Signature Terms

Contact us
Rte 308, Charlotte Amalie West, St Thomas 00802, USVI

© 2021 Popular. Member FDIC, except BVI.

https://www.popular.vi/cards/credit-cards/aadvantage-visa-signature/terms/

6/6

